     DEPARTMENT OF HOMELAND SECURITY

       Ofﬁce of Inspector General



             Evaluation of the Federal Air Marshal
                            Service




Notice: The Department of Homeland Security, Office of Counsel to the Inspector General,
has reviewed this report and excised information according to the Freedom of Information Act,
5 U.S.C. section 552, as amended.




  Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-04-32                                                     August 2004
                                                Errata



Please note the heading for Appendix A should read “Disciplinary Actions February 2002 – October
2003.” In addition, the text at the bottom of page 21 should read, “These 753 actionable incidents
represent disciplinary actions that were reported…between February 2002 and October 2003.”

While this correction alters the period from eight months to 20 months in which the 753 disciplinary
actions occurred, it does not alter the OIG’s original assertion and response to BTS. Based on the
misconduct list provided in TSA’s Interim Policy on Addressing Performance and Conduct
Problems, air marshals could have been dismissed in many misconduct cases between February
2002 and October 2003.
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                          Contents

  Introduction .................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 3

  Background .................................................................................................................................... 4

  Purpose, Scope, and Methodology................................................................................................. 5

  Findings ......................................................................................................................................... 6

       Background Investigations....................................................................................................... 6

       FAMS Training ...................................................................................................................... 11

       Flight Assignment .................................................................................................................. 14

       FAMS Transfer to ICE ........................................................................................................... 14

       DOT Report Recommendations ............................................................................................. 15

       Other Findings ....................................................................................................................... 18




Appendices

  Appendix A:             Reported FAMS Disciplinary Actions ................................................................ 24
  Appendix B:             Management Comments .......................................................................................25
  Appendix C:             OIG Evaluation of Management Comments ...................................................... 38
  Appendix D:             Recommendations .............................................................................................. 44
  Appendix E:             Major Contributors to This Report ..................................................................... 46
  Appendix F:             Report Distribution ............................................................................................. 47
  Appendix G:             Flight Assignment (Classiﬁed, Limited Distribution) ........................................ 49




                               Evaluation of the Federal Air Marshal Service (FAMS)                                                               Page 1
Contents

Abbreviations

         ASAIC   Assistant Special Agent In Charge
         ATPC    Aircraft Tactical Pistol Course
         ATSA    Aviation and Transportation Security Act
         BOP     Bureau of Prisons
         CPO     TSA Credentialing Program Ofﬁce
         DHS     Department of Homeland Security
         DOT     Department of Transportation
         FAA     Federal Aviation Administration
         FAMS    Federal Air Marshal Service
         FLETC   Federal Law Enforcement Training Center
         GOVs    Government-Owned Vehicles
         ICE     U.S. Immigration and Customs Enforcement
         OIA     Ofﬁce of Internal Affairs
         OIG     Ofﬁce of the Inspector General
         OPM     Ofﬁce of Personnel Management
         PPC     Practical Pistol Course
         SAIC    Special Agent In Charge
         SPB     Security Policy Board
         SF86    Questionnaire for National Security Positions
         SOCD    System Operations Control Division
         SUVs    Sport Utility Vehicles
         TPC     Tactical Pistol Course
         TSA     Transportation Security Administration




Page 2                  Evaluation of the Federal Air Marshal Service (FAMS)
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                 The Federal Air Marshal Service (FAMS) consists of thousands of trained law
                                 enforcement personnel who are responsible for protecting passengers and ﬂight
                                 crews in the event of a hijacking or terrorist incident. Armed air marshals blend
                                 in with ordinary passengers to cover high-risk domestic and international ﬂights
                                 on U.S. air carriers. Originally established as the Sky Marshals program in the
                                 1970s as part of the Customs Service to counter hijackings to Cuba, the FAMS
                                 was expanded in response to the September 11, 2001, terrorist attacks. With the
                                 passage of the Aviation and Transportation Security Act (ATSA)1 on November
                                 19, 2001, it is currently the largest force of its type in the world.

    Results in Brief
                                 The FAMS, originally part of the Transportation Security Administration (TSA),
                                 achieved the goals and met the deadlines set by Congress to hire and train the
                                 required number of air marshals for the safety of the ﬂying public. The FAMS has
                                 taken signiﬁcant steps to establish organizational policies and procedures to fulﬁll
                                 its mission and support its increased workforce.

                                 However, there were several deﬁciencies in the program. These deﬁciencies
                                 involve the FAMS policies governing background investigation and adjudication
                                 requirements, ﬁeld ofﬁce training, reservist selection, medical qualiﬁcations,
                                 disciplinary actions, and travel procedures. The level of our concern was
                                 heightened with the transfer of the FAMS within the Department of Homeland
                                 Security (DHS) to the U.S. Immigration and Customs Enforcement (ICE). The
                                 FAMS joined ICE on November 2, 2003, allowing approximately 5,000 ICE
                                 special agents to augment the current force of FAMS. This augmentation requires
                                 the Assistant Secretary of U.S. Immigration and Customs Enforcement to make
                                 several decisions regarding how ICE agents will be deployed as air marshals.
    1
        Public Law No. 107-71.




                                 Evaluation of the Federal Air Marshal Service (FAMS)                         Page 3
                              We are recommending that the Assistant Secretary of U.S. Immigration and
                              Customs Enforcement:

                                   1.    improve materials that guide background investigations adjudication
                                         decisions;
                                   2.    increase the scope of background investigations conducted for federal
                                         employees;
                                   3.    standardize ﬁeld ofﬁce training policies;
                                   4.    ensure that air marshals complete mandated quarterly training;
                                   5.    [redacted];2
                                   6.    develop criteria for the selection and training of ICE surge agents;
                                   7.    establish a personnel security appeals board to review denied clearances;
                                   8.    ensure that air marshals complete required annual medical examinations;
                                   9.    review current air marshal cases of administrative leave due to
                                         misconduct issues.

                              Also, we are recommending that the Under Secretary of Border and
                              Transportation Security:

                                   10. enforce administrative leave and disciplinary policies; and,
                                   11. discontinue the practice of advancing funds for ofﬁcial travel.

Background
                              Passage of the ATSA initiated rapid and signiﬁcant growth in the FAMS. This
                              expansion program was launched by the Federal Aviation Administration (FAA)
                              in October of 2001, and transferred to TSA in November 2001. The Deputy
                              Secretary of Transportation ordered TSA to recruit, hire, and train enough air
                              marshals to cover a signiﬁcant percentage of high-risk ﬂights across the nation by
                              July 1, 2002.

                              The ATSA requires that air marshals undergo a thorough background
                              investigation, including a review of governmental and international databases


2
  Appendix G contains the ﬁfth recommendation of this report as it relates to ﬂight coverage. This appendix is classiﬁed “secret” and is
available to authorized readers.




Page 4                                            Evaluation of the Federal Air Marshal Service (FAMS)
                           to the extent determined practicable by the Under Secretary of Transportation
                           for Transportation Security. TSA is responsible for ensuring that air marshals
                           are United States citizens, have no convictions within the past ten years, and
                           are otherwise suitable for employment. In addition, TSA requires applicants for
                           the FAMS to pass psychological and medical screenings, and to complete law
                           enforcement training that includes stringent ﬁrearms qualiﬁcations.

                           Between October 2001 and July 2002, TSA assessed approximately 10,000 air
                           marshal applicants and forwarded qualiﬁed applications to the Ofﬁce of Personnel
                           Management (OPM) for background investigations leading to top secret
                           clearances. While the investigations were pending, interim security clearances
                           were granted to those applicants who successfully passed the FAMS medical
                           entry standards, the Department of Transportation’s (DOT) drug testing program,
                           a credit and criminal history check, and a security interview with an investigator
                           from FAA or OPM.

                           Congress allocated $545 million to the FAMS in 2003, up from $4.4 million in
                           2001. This increase allowed the FAMS to establish a national headquarters in
                           Washington, DC, ﬁeld ofﬁces across the nation, a central training facility, and a
                           human resources center.

                           In the past three years the program has been transferred three different times.3
                           The FAMS’ most recent transfer fused all investigative resources into ICE, the
                           largest law enforcement component of DHS. DHS ofﬁcials said that this move
                           expanded the FAMS’ ability to respond to air security threats by creating a large
                           “surge” capacity of trained ICE agents who can respond during times of crisis or
                           increased threat.



Purpose, Scope, and Methodology
                           The purpose of this evaluation was to determine the efﬁcacy of the background
                           investigations, training, and ﬂight planning policies for the FAMS. Additionally,
                           we completed a limited review of personnel and training issues relative to the

3
  In November 2001, the authority over the FAMS shifted from the FAA to TSA within DOT; in March 2003, the FAMS was incorporated
with TSA into DHS; and in November 2003, the FAMS was transferred within DHS from TSA to ICE.




                            Evaluation of the Federal Air Marshal Service (FAMS)                                          Page 5
                             transfer of the FAMS to ICE, and evaluated TSA and the FAMS’ response to
                             recommendations made by the DOT Inspector General.4

                             We conducted interviews with staff from the FAMS, TSA, and OPM. We
                             examined the background investigation ﬁles of 332 current or potential air
                             marshals to establish the adequacy of investigations and adjudications.5 We
                             analyzed training ﬁles at the central training facility and ﬁeld ofﬁces to determine
                             the effectiveness of current training policies. We assessed workload and ﬂight
                             assignment procedures and statistics to determine whether the FAMS ﬂight
                             assignment methodologies were reasonable. Finally, we reviewed disciplinary
                             and leave data to calculate cumulative administrative costs attributed to the
                             program.

                             We conducted this evaluation between September 2003 and January 2004 at
                             FAMS and TSA ofﬁces in the Washington, DC area; the FAMS Training and
                             Human Resources centers in Atlantic City, NJ; and FAMS ﬁeld ofﬁces in Chicago,
                             IL, Los Angeles, CA, New York, NY, and Washington, DC. Our work was
                             conducted under the authority of the Inspector General Act of 1978, as amended,
                             and according to the Quality Standards for Inspections issued by the President’s
                             Council on Integrity and Efﬁciency.



Findings
     Background Investigations

                             The FAMS is integral to assuring the safety of the ﬂying public by preventing
                             hijackings and terrorist attacks on United States civilian aircraft. Since September
                             11, 2001, the FAMS has grown from a single ofﬁce that only ﬂew international
                             missions to thousands of air marshals located in multiple ﬁeld ofﬁces around
                             the country. Today, air marshals ﬂy both domestic and international ﬂights and
                             require access to classiﬁed information to perform their mission. Because air


4
  Federal Air Marshal Program, (Rep. No. SC-2003-029), March 14, 2003.
5
 This ﬁgure includes 161 air marshal applicants, 104 current air marshals previously employed by the Bureau of Prisons (BOP) and 67
current air marshals with security or misconduct issues.




Page 6                                           Evaluation of the Federal Air Marshal Service (FAMS)
                               marshals work undercover and select ﬂights for coverage, many operational
                               details of the FAMS activities are sensitive or classiﬁed.

                               National security positions can be designated at an appropriate sensitivity level
                               by individual agencies. The FAA classiﬁed the air marshal position as “high risk”
                               requiring a top-secret clearance.6 The DOT security designation and investigation
                               requirements applied to TSA during ﬁscal years 2002 and 2003 deﬁned high-
                               risk positions as those “with the potential for exceptionally serious impact on the
                               integrity and efﬁciency of the service… (including) positions with authority for
                               independent action and positions with law enforcement, ﬁduciary, public contact,
                               or other duties demanding the highest degree of public trust.”

                               Our evaluation identiﬁed two concerns regarding background investigations: (1)
                               suitability standards are too lenient and adjudications are made without issuing
                               warnings to people with questionable security backgrounds; and (2) background
                               investigators failed to identify past employee misconduct.

                               Suitability Standards Need to Be Clariﬁed

                               The passage of the ATSA required TSA to raise suitability standards for airport
                               screeners. Neither Congress nor TSA, however, addressed the need for stringent
                               air marshal suitability standards.

                               The OPM adjudicative guidelines were established to assist in the evaluation of
                               background information of personnel, such as air marshals, who require access to
                               classiﬁed information.7 According to these guidelines, adjudicators consider all
                               available information about the person, and the employing agency is responsible
                               for the ﬁnal determination. Although adverse information concerning a single
                               action may not be sufﬁcient for an unfavorable determination, the applicant
                               may be disqualiﬁed if the information reﬂects a recent or recurring pattern of
                               questionable judgment, irresponsibility, or emotionally unstable behavior. In
                               questionable cases, the adjudicating organization is in charge of initiating further
                               investigation.


6
    Personnel Security Program, DOT FAA, 1600.1D.
7
    The Adjudicative Guidelines for Determining Eligibility for Access to Classiﬁed Information, approved by the President March 24, 1997.




                                Evaluation of the Federal Air Marshal Service (FAMS)                                              Page 7
         In 2003, FAMS management began experiencing disciplinary problems with
         a number of active air marshals. In reviewing individual security ﬁles, FAMS
         management found documentation that some air marshals had committed similar
         incidents while previously employed, but were approved by TSA adjudicators
         without comment or warning. Therefore, to verify suitability, FAMS management
         decided to review 504 applicants who had been favorably adjudicated and were
         awaiting an offer of employment. Out of the 504, the FAMS management
         provided us with 161 air marshal applicants’ personnel security ﬁles that had
         information suggesting adjudication was lenient or questionable. The 161 cases
         contained ﬁnancial, employment, and criminal concerns.

                 Forty-six applicants had ﬁled for bankruptcy in the last seven years, and
                 half of those were at least 90 days delinquent on one or more accounts at
                 the time they were selected.
                 Seven applicants had previously misused a government credit card or
                 other government resources while employed by the federal government.
                 Twenty applicants had been ﬁred or resigned from previous places
                 of employment, and more than a third of those falsiﬁed information
                 relating to their termination on their Questionnaires for National Security
                 Positions (SF86).
                 Twenty-six applicants violated previous employer policies, resulting in
                 suspensions from work or forfeiture of pay, and half received written
                 letters of reprimand.
                 Sixty-two applicants had been arrested or faced allegations of
                 misconduct. Allegations of domestic violence or assault in the past ten
                 years accounted for 58 percent, driving under the inﬂuence of alcohol
                 for 27 percent, and complaints of sexual harassment for 11 percent.
                 Furthermore, 50 percent had been arrested more than once for a similar
                 offense in the past ten years.

         When we brought these cases to TSA’s attention, the Credentialing Program
         Ofﬁce (CPO) reviewed all 161 ﬁles to determine whether the initial adjudication
         was appropriate. The CPO found that 159 adjudications had been made correctly.
         The CPO found only two cases in which additional information should have
         been required before completing the initial adjudication. These results lead us to
         believe that the adjudication standards for air marshals are too lenient.




Page 8                  Evaluation of the Federal Air Marshal Service (FAMS)
Two of the 159 cases illustrating lenient adjudication standards were especially
noteworthy:

         An applicant had been ﬁred from the U.S. Customs Service in August
         2001, for “sexual harassment and other sexual misconduct with impact
         on the job” and “disruptive or violent behavior, leading to termination or
         forced resignation.” The U.S. Customs Special Agent In Charge (SAIC)
         did not recommend the applicant for service as an air marshal because
         “he is very aggressive, confrontational, and he has the potential to get in
         trouble.” The Department of Treasury, U.S. Customs Service Personnel
         Record indicates this applicant is ineligible for rehire by the U.S.
         Customs Service.
         Another applicant had been denied a gun permit by the State of New
         York, but the reason for denial was not in the applicant’s background
         investigation. In neither of the CPO reviews did the adjudicator request
         additional information before making a positive clearance determination.
         After we highlighted the fact that an air marshal carries a weapon 24
         hours a day, seven days a week, including in the State of New York, the
         adjudicator agreed to inquire further regarding the permit denial.

We disagree with the CPO’s conclusion regarding these two cases. In our
judgment, they indicate faulty adjudications and should not have been cleared by
the CPO’s second review.

More generally, an adjudicator has discretion in how derogatory information is
evaluated. The age of an incident, whether the outcome of a criminal arrest is
documented as a conviction, the weight to be given to an applicant’s ﬁnancial
difﬁculties, are matters that may inﬂuence an adjudicator’s decision whether
to approve the applicant. However, there were a number of unresolved and
potentially serious issues in the ﬁles.

Finally, after evaluating the security ﬁle, if an adjudicator decides that the
information is not serious enough to warrant a denial, OPM policy provides the
option of attaching a warning to a favorable determination. This warning grants a
top secret security clearance to an applicant with the option for revocation should
any future incidents of similar nature occur. The OPM policy also requires that a
copy of the warning be sent to the ofﬁce where the applicant will be stationed.




Evaluation of the Federal Air Marshal Service (FAMS)                          Page 9
                               CPO management provided a draft copy of the adjudication guidelines it is
                               developing to adjudicate the background investigations of TSA screeners.8 These
                               guidelines supplement those provided by OPM. If TSA is creating additional
                               suitability guidelines for screeners, the air marshals should be held to the same, if
                               not higher, adjudication standards.

                               Recommendation 1: We recommend that the Assistant Secretary of U.S.
                               Immigration and Customs Enforcement revise the FAMS suitability guidelines
                               to include: (1) disqualifying criminal, credit, employment, and other background
                               issues; (2) setting time limits on the length of time required between derogatory
                               incident and date of selection; and (3) providing for the use of warnings under the
                               OPM policy.

                               Background Investigators Failed to Identify Misconduct

                               The Bureau of Prisons (BOP), Ofﬁce of Internal Affairs determined that 104
                               current air marshals who had been granted a top secret clearance by TSA had been
                               involved in 155 separate cases of misconduct prior to their transfer from BOP to
                               the FAMS. These cases included offenses such as falling asleep on duty, verbally
                               abusing a female prison ofﬁcial, breach of security, physical abuse of an inmate,
                               inappropriate relationship with an inmate’s wife, and misuse of government
                               property and credit cards.

                               Of the 155 separate cases of misconduct, only 32 percent were discovered during
                               the formal OPM background investigations of the former BOP employees. OPM
                               learned of these violations only when the applicant admitted the violation or a
                               colleague disclosed the disciplinary action in an interview. In only one of these
                               cases did an OPM investigator query BOP Ofﬁce of Internal Affairs (OIA) to
                               obtain additional information regarding the reported misconduct. In another
                               case, where the need for further inquiry would have seemed self-evident, the
                               investigator noted in the report that the BOP employee was under grand jury
                               investigation, but neither the investigator nor TSA sought additional information
                               before granting a top secret clearance to the applicant.



8
    TSA Draft Screener Adjudication and Standardization Guide, October 30, 2003.




Page 10                                           Evaluation of the Federal Air Marshal Service (FAMS)
                            Sixty-eight percent of the cases documented by BOP were not detected by
                            the OPM investigation. According to BOP, its OIA was only consulted once
                            regarding the employment histories of air marshal applicants.

                            We brought the 104 cases to the attention of the TSA CPO, who conducted a
                            second adjudication of the personnel involved in these misconduct violations.
                            The TSA CPO sustained 103 adjudication determinations because the OPM
                            background investigations did not contain the derogatory information we obtained
                            from the BOP Ofﬁce of Internal Affairs. TSA took action in the case involving
                            the air marshal who was under a grand jury investigation at the time of his
                            background investigation. After conducting further inquiry, TSA determined that
                            the air marshal had recently been cleared of all allegations.9

                            Recommendation 2: We recommend that the Assistant Secretary of U.S.
                            Immigration and Customs Enforcement require that background investigations
                            of current and former federal employees include a review of all available
                            personnel, security, and conduct ﬁles held by the employing agency. This can be
                            accomplished by placing a clause in the OPM investigation agreement requiring
                            that internal affairs ofﬁces be checked for derogatory employment records on the
                            applicant.

    FAMS Training

                            The FAMS is a well-trained and professional workforce. Newly hired air
                            marshals with no prior federal law enforcement experience attend a basic training
                            course titled Phase I for seven weeks at the Federal Law Enforcement Training
                            Center (FLETC) in Artesia, NM. When air marshals successfully complete Phase
                            I training, they report to their respective ﬁeld ofﬁces for the ﬁrst of four weeks
                            of advanced Phase II training. The ﬁnal three weeks of Phase II training are
                            conducted in Atlantic City, NJ, and include instruction in cockpit familiarization,
                            emergency evacuation, and advanced marksmanship. Some air marshals
                            with prior federal law enforcement training bypass Phase I and are scheduled
                            immediately for Phase II training. In addition, 40 hours of mandatory training are


9
  When we notiﬁed FAMS management of the ongoing criminal investigation, the air marshal was removed from mission status until the
CPO could obtain additional information.




                             Evaluation of the Federal Air Marshal Service (FAMS)                                           Page 11
          conducted quarterly in each ﬁeld ofﬁce, including a re-qualiﬁcation of the basic
          marksmanship course called the “Practical Pistol Course (PPC).”

          Instructors at the central training facility and ﬁeld ofﬁces teach a curriculum
          designed to produce a cadre of air marshals with superior marksmanship and
          decision-making skills. However, there are delays in the training program, minor
          inconsistencies in marksmanship qualiﬁcation procedures, and some air marshals
          do not meet mandatory quarterly training requirements.

          Training Delays

          During the rapid expansion of the FAMS between November 2001 and July 2002,
          all air marshals received at least one week of air marshal-speciﬁc training and
          varying amounts of initial training. In order to standardize the baseline skills
          of FAMS, the training division decided in August of 2002 that all air marshals,
          regardless of previous background or training, would be required to complete
          Phase II training in its entirety.

          Initial plans called for all current air marshals to complete Phase II training by
          January 2004. FAMS management reported, however, that funding constraints
          and weather delays in the construction of a new training facility prevented the
          training staff from increasing class sizes and meeting the January 2004 milestone.
          We reviewed a revised training schedule that indicates all operational air marshals
          will complete Phase II training by June 2004.

          Basic Marksmanship Training Policies

          Marksmanship is one of the most important skills possessed by an air marshal.
          Currently, the FAMS boasts that it has the highest ﬁrearms qualiﬁcation
          requirement of any federal law enforcement agency. Each quarter, all air marshals
          must obtain a score of at least 255 out of 300 during the PPC qualiﬁcation. While
          visiting ﬁeld ofﬁces throughout the nation, however, we encountered variations in
          PPC qualiﬁcation practices.

          In some ﬁeld ofﬁces, air marshals are allowed to shoot as many as 30-35 rounds
          before starting the qualiﬁcation course on the weapons range, while in other ﬁeld
          ofﬁces air marshals are required to shoot the qualiﬁcation course “cold,” as they




Page 12                  Evaluation of the Federal Air Marshal Service (FAMS)
are not allowed any practice rounds of ammunition. Training instructors in ofﬁces
where the air marshals shoot “cold” argued that this method of qualiﬁcation best
approximates the conditions an air marshal would encounter on board an aircraft.
Our review of average ﬁeld ofﬁce qualiﬁcation scores indicates that these ofﬁces
do not score as well as ofﬁces that allow a warm up before qualiﬁcation.

During visits to several ﬁeld ofﬁces, we discovered there was no consistent
service-wide policy regarding the treatment of air marshals who fail to qualify
during the PPC. In some cases, remedial training is ordered on the ﬁrst available
day the air marshal is not in ﬂight status, while in other ofﬁces an air marshal may
be immediately removed from ﬂight status until a passing score is achieved.

Recommendation 3: We recommend that the Assistant Secretary of U.S.
Immigration and Customs Enforcement develop a clear and consistent policy
regarding the testing of the PPC in the ﬁeld ofﬁces. This policy should address
how the qualiﬁcation is to be conducted and the treatment of air marshals who fail
to qualify during a ﬁrst attempt.

Quarterly Training Requirements Are Not Always Enforced

Field ofﬁce training is designed to maintain and enhance the skills air marshals
develop in Phase I and Phase II. The curriculum is standardized and consistent
with both Phase I and Phase II training programs, and includes ﬁrearms
qualiﬁcation, surveillance detection, hand-to-hand combat, emergency medical
treatment, and tactics. All air marshals are required to participate in ﬁve days of
ﬁeld ofﬁce training per quarter, and each ofﬁce has a designated team to provide
this training on an ongoing basis.

We examined FAMS ﬁeld ofﬁce records to verify that air marshals were receiving
the required training. While there was no evidence to support mandatory
training took place, we noted that when operational air marshals are rotated
into administrative positions for a temporary period, they generally fail to meet
the mandated ﬁve days of quarterly training. In addition, SAICs and Assistant
Special Agents in Charge (ASAIC) are not excluded from the quarterly training
requirements, yet they, too, are not completing all elements of the recurrent
training program. While it is unlikely that SAICs or ASAICs would be required
to ﬂy missions, they ﬂy armed during personal and business travel.




Evaluation of the Federal Air Marshal Service (FAMS)                         Page 13
                 Recommendation 4: We recommend that the Assistant Secretary of U.S.
                 Immigration and Customs Enforcement ensure that all air marshals complete
                 mandated quarterly training requirements or clarify which personnel are exempt
                 from this policy.

   Flight Assignment

                 Before September 11, 2001, ﬂight assignment activities for the FAMS could
                 be carried out using “pen and paper” methods. When the FAMS signiﬁcantly
                 increased in numbers, however, those methods no longer sufﬁced. To accomplish
                 the mammoth task of identifying and stafﬁng ﬂights for the increasingly large
                 workforce, the FAMS established the System Operations Control Division
                 (SOCD).

                 The SOCD has two primary missions. First, it functions as the scheduling center
                 for all air marshal missions worldwide. In this role, the center identiﬁes all ﬂights
                 requiring air marshal coverage, assigns ﬂights, and ensures that seating is secured.
                 Second, a subordinate division to the SOCD, the Mission Operations Command
                 Center, serves as a 24-hour-a-day, 7-day-a-week command post to address
                 problems that arise as air marshal missions are under way.

                 (The balance of this discussion is classiﬁed and located in Appendix G)

                 Recommendation 5: This recommendation is classiﬁed.

   FAMS Transfer to ICE

                 On September 2, 2003, Secretary Ridge announced plans to reorganize DHS
                 by transferring the FAMS from TSA to ICE, giving the FAMS the ability to
                 supplement its workforce with ICE special agents during times of increased
                 aviation terrorist threats. In this reorganization, ICE management must make
                 several important decisions regarding which personnel will be selected to
                 supplement the air marshal workforce and how they will be trained.




Page 14                          Evaluation of the Federal Air Marshal Service (FAMS)
            (b)(2)High
            (b)(2)High


            (b)(2)High
            (b)(2)High




            (b)(2)High
            (b)(2)High




            Recommendation 6: We recommend that the Assistant Secretary of U.S.
            Immigration and Customs Enforcement develop criteria and a schedule for the
            selection and training of surge capacity ICE special agents.

DOT Report Recommendations

            Our evaluation included the FAMS response to recommendations made by the
            DOT Inspector General in a report titled Federal Air Marshal Program. The
            report contained recommendations on the following items: (1) background
            checks; (2) Phase II training; (3) Aircraft Tactical Pistol Course (ATPC); (4)
            policy development; (5) ﬁrearms inventories; (6) government vehicles; (7)
            Bluetooth™ technology; and (8) job dissatisfaction.

                     Background Checks – Complete background investigations on all current
                     air marshals by September 1, 2003.




            Evaluation of the Federal Air Marshal Service (FAMS)                      Page 15
          Representatives from the FAMS Human Resource Ofﬁce said that all operational
          air marshals have a top secret clearance, with the exception of the air marshals
          noted in this report who were denied a clearance and placed on administrative
          leave. Our limited review of the security ﬁles supported their statements. We
          consider this recommendation to be resolved.

                  Phase II Training – Implement a plan by June 1, 2003, to expeditiously
                  and efﬁciently provide Phase II basic training to all air marshals,
                  giving priority to those air marshals who only received the one week air
                  marshal-speciﬁc training course.

          Initial plans called for all current air marshals to complete the four week Phase II
          training by January 2004. While there was a delay, we reviewed a revised training
          schedule that shows all operational air marshals completing Phase II training by
          June 2004. We consider this recommendation to be resolved.

                  ATPC – Develop and implement a ﬁrearms qualiﬁcation/re-qualiﬁcation
                  standard that reﬂects the unique environment in which air marshals are
                  required to perform their mission by June 1, 2003.

          In March 2002, the FAMS made a controversial decision to remove the Tactical
          Pistol Course (TPC) as a qualiﬁcation standard for incoming air marshals. The
          FAMS has included in Phase II a new course called the Aircraft Tactical Pistol
          Course (ATPC) that incorporates most of the elements taught in the previous TPC.
          Although the ATPC is not a qualifying course, it is scored when conducted and
          all scores become a part of the air marshal’s permanent training record of ﬁrearms
          proﬁciency. In addition, the FAMS has added a ﬁnal, comprehensive course to
          Phase II training that involves scored tactical scenarios and decision making
          exercises. Each air marshal must receive a passing score on this tactical course in
          order to graduate from Phase II training and remain on ﬂight status.

          At the time of our evaluation, 43 percent of operational air marshals had attended
          the Phase II training course. Of those who had completed the course, only three
          percent required a third attempt to achieve a satisfactory score on the ATPC
          during Phase II training. When we visited the FAMS ﬁeld ofﬁces, we reviewed
          the local training records of the air marshals who had experienced difﬁculty
          with the ATPC course. In all but one case, we discovered the marksmanship




Page 16                  Evaluation of the Federal Air Marshal Service (FAMS)
skills of these air marshals improved, and that additional remedial training and
increased scrutiny of performance were no longer necessary. We consider this
recommendation to be resolved.

         Policy Development – Immediately determine what policies still must be
         developed or modiﬁed, assign priorities to them, and then develop and
         implement them by September 1, 2003.

The FAMS has completed 30 directives, and has drafted an additional 12 for
review. Though we commend the FAMS for this action, we consider this
recommendation open and have included policy and procedural recommendations
elsewhere in this evaluation.

         Firearms Inventories – Ensure that ﬁrearms inventories are performed
         quarterly.

As a result of the DOT OIG report, the FAMS initiated a requirement for
conducting a Weapons Inventory Review on a quarterly basis, and completed
its ﬁrst inventory under this requirement on January 24, 2003. We inspected
the ﬁrearms armory where weapons are stored, the new inventory system, and
the facility where all ﬁrearms are cleaned and repaired. All were found to be
satisfactory. We consider this recommendation to be resolved.

         Government Vehicles – Determine the quantity and type of Government-
         Owned Vehicles (GOVs) needed at each ﬁeld ofﬁce on a case-by-case
         basis and, by September 30, 2003, contract for only what is needed.

The DOT OIG report noted that TSA could save money if FAMS ﬁeld ofﬁces
leased sedans instead of a mixture of sport utility vehicles (SUVs) and passenger
vans. DOT requested that the FAMS evaluate how many and what type of
vehicles are necessary for each ﬁeld ofﬁce.

We conducted our own evaluation and determined that the combined cost to the
government of FAMS ﬁeld ofﬁces using a van and an SUV is less than that of
four sedans. An air marshal squad and its equipment can ﬁt in either one ﬁfteen
passenger van and one SUV, or four sedans. Current training requirements entail
the transportation of an air marshal squad (b)(2)High
                                                 (b)(2)High




Evaluation of the Federal Air Marshal Service (FAMS)                        Page 17
                    (b)(2)High
                    (b)(2)High         and sufﬁcient weapons, ammunition, and targets to an offsite
                    ﬁring range for ﬁrearms practice. Since the DOT report was published, the FAMS
                    has added 178 GOVs to its ﬂeet including 116 sedans, 27 ﬁfteen-passenger vans,
                    23 sport utility vehicles (SUVs), and 12 minivans. The justiﬁcation provided for
                    the additional vehicles to ﬁeld ofﬁces, the training facility, and headquarters is
                    satisfactory and we consider this recommendation to be resolved.

                                 (b)(2)High
                                 (b)(2)High




                    (b)(2)High
                    (b)(2)High




                                 Job Dissatisfaction – Implement a program, by June 1 2003, to identify
                                 and remediate indicators of job dissatisfaction.

                    The FAMS addressed the speciﬁc items of job dissatisfaction identiﬁed in the
                    DOT OIG report but did not develop a separate program to assess indicators of
                    job dissatisfaction. However, FAMS attrition rates, normally considered the
                    primary indicator of job dissatisfaction, are within the normal range for federal
                    law enforcement ofﬁcers. Establishment of a separate program monitoring job
                    dissatisfaction indicators in the FAMS may not be necessary and is of doubtful
                    reliability as a morale indicator. We consider this recommendation to be resolved.

   Other Findings

                    During our evaluation, we identiﬁed ﬁve additional areas requiring action by TSA
                    or the FAMS. These problems were associated with TSA’s failure to establish
                    a personnel security appeals board and the FAMS’ failure to follow established
                    medical and physical ﬁtness standards. In addition, a lack of prompt and
                    appropriate disciplinary action regarding conduct violations and misuse of travel
                    funds was evident.

                    TSA Failed to Establish a Personnel Security Appeals Panel

                    TSA made a negative suitability determination for 81 air marshals in 2003, and
                    placed them on administrative leave. Between December 1, 2002, and September




Page 18                                Evaluation of the Federal Air Marshal Service (FAMS)
                            21, 2003, TSA payroll system recorded 20,502 hours of administrative leave that
                            had been approved at a cost of more than one-half million dollars. As of March
                            31, 2004, 45 air marshals are still on administrative leave, 13 of who have been
                            on leave for ten months or longer. Under normal circumstances, an employee
                            remains on administrative leave until a panel hearing.10

                            Some of the 81 clearances were denied because TSA did not receive a response to
                            letters of inquiry that were sent to air marshals requesting additional information.
                            Consequently, the FAMS created a liaison ofﬁce to communicate with air
                            marshals and ﬁeld supervisors to ensure that all requested information was
                            provided to TSA adjudicators in a timely manner. In some cases, the additional
                            information enabled adjudicators to grant top secret clearances. However,
                            air marshals appealing the denial of a top secret clearance were placed on
                            administrative leave while waiting to appear before an appeals panel. Termination
                            of the air marshal was not possible because TSA had not established an appeals
                            board and, as a result, those air marshals denied top secret clearances remained on
                            administrative leave for lengthy periods at signiﬁcant cost to the government.

                            Recommendation 7: We recommend that the Assistant Secretary of U.S.
                            Immigration and Customs Enforcement establish a personnel security appeals
                            board to review denied clearances.

                            Medical and Physical Fitness Requirements Are Not Always Being Met

                            At the time of application, each air marshal candidate is required to undergo
                            a comprehensive medical examination equivalent to the second class airman
                            medical exam, and current air marshals are to complete a medical exam on
                            an annual basis. Since September 11, 2001, no operational air marshals have
                            completed an annual medical examination.




10
 According to Executive Order Number 12968, Access to Classiﬁed Information, Part 5, Section 5.2(a)(6)(7), applicants and employees
who are denied clearances will be provided the opportunity to appeal in writing and appear personally before a high level panel.




                             Evaluation of the Federal Air Marshal Service (FAMS)                                           Page 19
          To justify stringent medical standards, an FAA memorandum dated November 13,
          1997, Medical Standards for Federal Air Marshals (FG-1801), stipulates that air
          marshals must have the ability to:

                  Absorb psychological punishment and stress;
                  Possess sufﬁcient upper body strength;
                  Be able to restrain a person after running; and
                  Use appropriate self-defense methods.

          In addition, FAA’s medical standards require that all air marshals participate in
          a rigorous ﬁeld ofﬁce physical ﬁtness program. While individual ﬁeld ofﬁces
          encourage air marshals to exercise on a regular basis to maintain the medical
          standard, FAMS management does not conduct a formal physical ﬁtness program.

          Recommendation 8: We recommend that the Assistant Secretary of U.S.
          Immigration and Customs Enforcement ensure that air marshals complete
          required annual medical examinations, and clarify as well as enforce a structured
          physical ﬁtness program.

          Administrative Leave Policy Is Needed

          Two air marshals were placed on administrative leave pending a ﬁtness for duty
          evaluation. A ﬁtness for duty examination includes an independent medical,
          psychological, and psychiatric evaluation.

                  One air marshal was placed on leave January 13, 2003, but FAMS
                  management never scheduled the ﬁtness for duty evaluation. This air
                  marshal was left on administrative leave for more than 25 weeks.
                  Another air marshal was placed on administrative leave pending a
                  ﬁtness for duty examination. The ﬁeld ofﬁce requested the evaluation
                  on January 30, 2003, but FAMS management did not authorize the
                  evaluation until June 6, 2003. The results of the examination, ﬁnally
                  reported on August 11, 2003, declared the air marshal ﬁt for duty.
                  However, the air marshal resigned on September 19, 2003, after having
                  been paid for 1136 hours, or approximately 28 weeks, of administrative
                  leave.




Page 20                  Evaluation of the Federal Air Marshal Service (FAMS)
                             While we do not question the SAIC’s judgment in requesting the evaluation, we
                             do question the timeliness of the FAMS’ administrative process for handling these
                             requests.11

                             Recommendation 9: We recommend that the Assistant Secretary of U.S.
                             Immigration and Customs Enforcement establish a policy addressing the FAMS’
                             use of administrative leave.

                             Conduct and Disciplinary Policies Are Not Always Enforced

                             Though TSA developed clear and stringent disciplinary standards for airport
                             screeners, the agency did not do so for the FAMS. TSA’s Interim Policy on
                             Addressing Performance and Conduct Problems includes a list of ﬁrst time
                             offenses for which screener removal is required, such as sleeping on duty,
                             working under the inﬂuence of alcohol or illegal drugs at any time, and
                             falsiﬁcation of information. The interim policy applies to all employees of
                             TSA and, though it speciﬁcally identiﬁes screener offenses for which removal
                             is required, states that non-screeners can be terminated for a ﬁrst offense, too.
                             According to TSA’s interim policy, “agencies are permitted to hold certain
                             employees such as supervisors or law enforcement ofﬁcers to higher standards
                             than other employees.” Based on the misconduct list provided in the TSA interim
                             policy, air marshals could have been dismissed in many cases, but were not.
                             Since air marshals are weapon carrying law enforcement ofﬁcers, they can and
                             should be held to a standard of conduct at least as high as that of screeners.

                             In cases of misconduct by air marshals currently employed, there were 753
                             documented reports of sleeping on duty, falsifying information, testing positive
                             for alcohol or illegal drugs while on duty, and stolen or lost weapons.12 These
                             753 actionable incidents represent disciplinary actions that were reported to the
                             FAMS Human Resource division between February 2002 and October 2002.13
                             In many cases, air marshals were placed on administrative leave for extended


11
   Failure by FAMS management to quickly determine a course of administrative action led to 72 air marshals placed on paid
administrative leave for a combined total of 10,850 hours. The amount of administrative leave for the 72 air marshals ranged from 40 to
1136 hours.
12
   Appendix A - Disciplinary Actions. Corrected to "October 2003" in accordance with errata issued September 20, 2004.
13
   Appendix A - Disciplinary Actions. Corrected to "October 2003" in accordance with errata issued September 20, 2004.




                              Evaluation of the Federal Air Marshal Service (FAMS)                                              Page 21
          periods of time. In similar cases, a screener would have been placed on leave
          without pay or dismissed according to TSA policy. Therefore, several air
          marshals could have been terminated for violating ﬁrst offenses listed on the TSA
          interim conduct policy.

          The FAMS’ failure to utilize TSA’s interim disciplinary policy is evident in two
          cases involving criminal misconduct and use of illegal drugs.

                  An air marshal charged with criminal misconduct and placed under a
                  protection order was required by law to surrender his weapon, rendering
                  him unable to perform his assigned duties. TSA’s disciplinary policy
                  clearly states that off-duty egregious misconduct could result in an
                  indeﬁnite suspension without pay. Yet, no disciplinary action was taken
                  against the air marshal.
                  Two air marshals were placed on administrative leave when marijuana
                  usage was detected in a random drug test. TSA’s interim policy mandates
                  removal with the ﬁrst drug offense.

          Recommendation 10: We recommend that the Under Secretary of Border and
          Transportation Security establish a clear understanding of which disciplinary
          policies are applicable to the FAMS and ensure that those policies are
          implemented and enforced.

          $6.5 Million in Travel Advances Are Not Necessary

          While conducting interviews at FAMS ﬁeld ofﬁces across the nation, we
          discovered that approximately $6.5 million had been dispersed as cash travel
          advances to air marshals upon initial employment. This policy dates to 1968 and
          the inception of the Sky Marshal program, when reimbursement delays and travel
          advances were common. Today, air marshals ﬁle a travel voucher every two
          weeks using a secure web-based system, and reimbursement is almost immediate.
          As we understand it from our interviews, the travel advance is never applied
          against the air marshal’s travel voucher and is not recovered until the air marshal
          leaves employment with the FAMS.




Page 22                  Evaluation of the Federal Air Marshal Service (FAMS)
Recommendation 11: We recommend that the Under Secretary of Border and
Transportation Security discontinue the travel advance policy and recover all
previously advanced travel funds.




Evaluation of the Federal Air Marshal Service (FAMS)                     Page 23
Appendix A
Reported FAMS Disciplinary Action



                       Disciplinary Actions February 2002 - October 2002*                  TOTAL
              Improper Flight Conduct                                                        249
              Lost/Stolen Government Equipment – Includes weapons                            143
              Miscellaneous Improper Conduct                                                 125
              Credit Card Abuse                                                               73
              Falsifying Information Reports & Misuse of Government Equipment                 53
              Failed Training                                                                 41
              Sleeping on Duty                                                                27
              Alcohol & Drug                                                                  24
              Unauthorized Use of Weapon                                                      18
                                                                                             753



             *Corrected to "October 2003" in accordance with errata issued September 20, 2004.




Page 24                             Evaluation of the Federal Air Marshal Service (FAMS)
                                                       Appendix B
                                                       Management Comments




Evaluation of the Federal Air Marshal Service (FAMS)                 Page 25
Appendix B
Management Comments



                          BTS Responses to DHSOIG Recommendations:
                          “Evaluation of the Federal Air Marshal Service”


Recommendation 1: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement revise the FAMS suitability guidelines to include: (1) disqualifying criminal,
credit, employment, and other background issues; (2) setting time limits on the length of time
required between derogatory incident and date of selection; and (3) providing for the use of
warning under the OPM policy.

Response: BTS agrees that subsequent FAM adjudications conducted by ICE should be guided by
published suitability standards developed by ICE and applicable standards and guidelines for security
clearance adjudications. Since the transfer of the FAMS to ICE, ICE has developed and implemented
guidelines which are currently in place that fully address all aspects of this recommendation.

ICE has always believed that sworn law enforcement ofﬁcers must be held to a higher standard. This
is evidenced by the FAMS taking the initiative to review the ﬁles of 504 applicants who had been
favorably adjudicated by TSA and were awaiting an offer of employment (See page 7 of DHS-OIG draft
report). This review of the ﬁles identiﬁed 161 ﬁles that contained signiﬁcant issues that should have
precluded the granting of a Top Secret Clearance. The DHS-OIG Inspectors agreed with each of the
FAMS assessments. These 161 ﬁles are maintained by the FAMS Humans Resource Division located in
Atlantic City, NJ and are available for review.

These cases were brought to TSA’s attention. All 161 cases were reviewed by an independent adjudicator
(independent of the original adjudication) at TSA’s request and 159 of those were adjudicated favorably
both in terms of suitability and the granting of Top Secret Clearances, which was consistent with the
initial adjudications. In regards to the two outstanding cases speciﬁcally indemniﬁed in the report, TSA
will obtain those pertinent case ﬁles from the FAMS Human Resources Ofﬁce to re-examine those cases.

Therefore, BTS disagrees with the conclusion that adjudication standards were too lenient based upon a
review of the 161 identiﬁed cases.




Page 26                              Evaluation of the Federal Air Marshal Service (FAMS)
                                                                                 Appendix B
                                                                                 Management Comments



Recommendation 2: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement require that background investigations of current and former federal
employees include a review of all available personnel, security, and conduct ﬁles held by the
employing agency. This can be accomplished by placing a clause in the OPM investigation
agreement requiring that internal affairs ofﬁces be checked for derogatory employment records
on the applicant.

Response: BTS agrees that background investigations should review all available personnel, security,
and conduct ﬁles held by previous employers, as determined appropriate by OPM investigators. OPM
does inquire with the appropriate internal affairs ofﬁces should evidence present itself in the course of an
investigation.

The FAMS have already identiﬁed the need to establish contact with an applicant’s current/past
employer at the initial applicant stage. This will enable the FAMS to eliminate those applicants from
consideration who would not be eligible for a clearance at an earlier stage in the investigation.

This is the more cost effective method of disqualifying applicants prior to the more expensive Single
Scope Background Investigation (SSBI). The FAMS will also address consequences in its contract with
the SSBI vendor should the vendor fail to complete the SSBI in the prescribed timeframe.


Recommendation 3: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement develop a clear and consistent policy regarding the testing of the PPC in the
ﬁeld ofﬁces. This policy should address how the qualiﬁcation is to be conducted and the treatment
of air marshals who fail to qualify during a ﬁrst attempt.

Response: The FAMS has a clear and consistent ﬁrearms policy that has the Practical Pistol Course
(PPC) as the qualiﬁcation standard. FAMS must score 85% or higher to qualify. With the completion
of Phase II training, the Ofﬁce of Training and Development (OTD) has activated assessment teams
to visit all ﬁeld ofﬁces to ensure consistency in all aspects of training, including ﬁrearms. This policy
will ensure standardization of warm up procedures, course of ﬁre, and remedial action if qualiﬁcation
standards are not met. During ﬁrearms re-qualiﬁcation, FAMS are required to shoot a minimum of two
courses of ﬁre and are encouraged to shoot additional courses as time allows. All scores will be recorded
with the highest score being recorded for qualiﬁcation.

BTS will ensure that all FAMS assigned to FAMS Headquarters and support functions will qualify with
their issued ﬁrearms on a quarterly basis.




                       Evaluation of the Federal Air Marshal Service (FAMS)                         Page 27
Appendix B
Management Comments



Recommendation 4: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement ensure that Federal Air Marshals complete mandated quarterly training or
clarify which personnel are exempt from this policy.

Response: BTS agrees with and ICE has taken steps to comply with this recommendation. During
the initial stand up of the FAMS, records were maintained at the various ﬁeld ofﬁces and headquarters
locations. A centralized training database was not available. The main training emphasis was meeting
Phase I and Phase II training requirements. Phase I and Phase II training for current FAMS was
completed on July 2, 2004. Since January 2004 quarterly records have been kept in a centralized
database maintained by the Ofﬁce of Training and Development (OTD). Training data is entered directly
into the training database from the responsible ﬁeld ofﬁce or headquarters unit. OTD is responsible
for ensuring that mandatory training requirements are met for ﬁrearms qualiﬁcation, physical ﬁtness,
surveillance detection, tactics and defensive measures. OTD also keeps records and tracks FAMs that
do not meet quarterly training requirements due to injury, military active duty, etc. OTD is currently
conducting interviews of ﬁeld ofﬁce training procedures and will be issuing additional standardized
training requirements when the reviews are completed. OTD will ensure that quarterly training
requirements for FAMs assigned to headquarters and other support elements outside the purview of the
ﬁeld ofﬁces are met. Supervisory FAMs, whose duties do not include ﬂying missions, are not required
to participate in quarterly physical ﬁtness, surveillance detection, tactics and defensive measure;
however, they are required to meet quarterly ﬁrearms qualiﬁcations standards.


Recommendation 5: See attached classiﬁed response.




Page 28                              Evaluation of the Federal Air Marshal Service (FAMS)
                                                                                 Appendix B
                                                                                 Management Comments



Recommendation 6: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement develop criteria for the selection and training of ICE surge agents.

Response: BTS strongly concurs with this recommendation and has supported ICE’s efforts on this
issue. A 40-hour Surge training program was developed and implement by ICE in December 2003.
This program is designed to expand the pool of trained ICE agents from which the FAMS can draw for
increasing ﬂight coverage during times of elevated risk to the security of the nation. In addition, the
criteria for the selection and training of ICE special agents have been in place since that time.

ICE is committed to the training of Immigration and Customs Enforcement (ICE) Ofﬁce of
Investigations (OI) Special Agents, with the ultimate goal of potentially providing surge training to all
OI Special Agents.

Subsequent to September 11, 2001, approximately (b)(2)High
                                                        (b)(2)High
                                                                     from various agencies, were
trained as augmentee FAMs to help secure the nations aviation system. They acted as a manpower “Stop
Gap” while the FAMS began to select, hire, train, and deploy permanent FAMs. Many of those initial
augmentees came from legacy BTS agencies.

In December 2003 the FAMS initiated Surge training for current ICE agents who had previously ﬂown
as augmentees following 9/11/01. The Surge training was conducted to update these augmentees on the
FAMS operational concept, the skills and the methods used by FAMs in mission status.

The Surge training has been since expanded to include other experienced ICE agents.      (b)(2)High
                                                                                         (b)(2)High



(b)(2)High
(b)(2)High




The 40-hour Surge training program is designed to provide those designated ICE agents with the
rudimentary conceptual information and skills (b)(2)High
                                                   (b)(2)High


(b)(2)High
(b)(2)High




(b)(2)High
(b)(2)High


(b)(2)High
(b)(2)High

                          The training of OI Special Agents in geographically co-located ofﬁces enables




                       Evaluation of the Federal Air Marshal Service (FAMS)                         Page 29
Appendix B
Management Comments



DHS/ICE/FAMS to be more efﬁcient and effective when deploying these agents during times of heightened
alert and/or crisis, and provide recurrent training when required by the FAMS.

The increase in the numbers of Surge trained OI Special Agents provides the FAMS with the ability to
provide increased security for the nation’s civil aviation system for short durations on a rotational basis.
This will increase the number of FAMS missions ﬂown in response to actual or potential threats within
the aviation domain and ultimately reduces America’s overall vulnerability to current and future threats.

Recommendation 7: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement establish a personnel security appeals board to review denied clearances.

Response: BTS concurs with this recommendation but notes that appeals of revocations or denials of
security clearances are typically ﬁles with a security appeals panel at the departmental level. DHS has
established a Security Appeals Panel to handle the appeals of all DHS employees, including those in
DHS organizational elements. By memorandum dated April 28, 2004, DHS authorized the creation of a
special temporary TSA/FAM Security Appeals Panel (“Panel”) “to hear any security appeal of a FAMS
employee whose security clearance has been denied/revoked by a deciding authority at TSA where such
adjudication was pending on the date of the memorandum.” The Panel is temporary in nature and will be
dissolved upon completion of the identiﬁed appeals.

ICE has already advertised positions for additional FAMS Clearance Adjudicators with selections
subject to hiring restrictions and availability of funds. The FAMS Ofﬁce of Training will then begin
to certify an additional number of Headquarters personnel to address the entire adjudication process to
include an Appeal Panel for those instances of denied or revoked clearances. BTS will work with DHS
to determine at what level in the department the Security Appeals Panel will reside.

Recommendation 8: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement complete required annual medical examinations

Response: BTS agrees with this recommendation. In March 2004 the FAMS initiated a program
to provide mandatory medical examinations for FAMS. Currently the FAMS is in the process of
completing required periodic medical examinations for all FAMS. The FAMS’ regulation for physical
examinations is currently legacy FAA policy, 14 CFR, Part 67, Section 201-215. Following legacy
policy, “a government physician” is responsible for certifying clearance for continued employment. The
periodic examination and clearance requires the expertise of a physician familiar with Occupational
Medicine, Aviation Medicine and possessing experience and familiarity with the FAM job position.
Medical Programs Branch, Ofﬁce of Mission Support staff, which includes two physicians, nurses




Page 30                                Evaluation of the Federal Air Marshal Service (FAMS)
                                                                               Appendix B
                                                                               Management Comments



and other medical professionals, review and perform the certiﬁcation of each FAM. Due to budget
restrictions, the FAMS has only been able to provide annual physical examinations for those over 40
years of age. FAMS under 40 years of age receive physicals on a two year basis. If out year budgets
allow, we will review this policy to try to ensure all FAMS receive physical examinations annually.

Recommendation 9: We recommend that the Assistant Secretary of the U. S. Immigration and
Customs Enforcement establish a policy addressing the FAMS’ use of Administrative Leave.

Response: BTS concurs with this recommendation and provides the following information for your
consideration. Current Memorandum of Understandings (MOUs) require that the FAMS will adhere
to existing TSA policy until such time that administrative support services are fully integrated into
ICE. BTS will work with the DHS U/S for Management, ICE and TSA to quickly implement the
necessary administrative support services for ICE in order to establish a sound policy for FAMs use of
Administrative Leave.

The DHS-OIG Draft Report #6, under Recommendation 7 and 9 makes reference to the extended use
of Administrative Leave by the FAMS. In Recommendation 7, the use of Administrative Leave is
directly attributed to employees whose clearances have been denied/revoked. In Recommendation 9,
the two examples cited deal speciﬁcally with cases involving ﬁtness for duty exams. The accompanying
Footnote #10 however uses a total of Administrative Leave hours that is a combination of clearance,
disciplinary issues and cases involving ﬁtness for duty exams. This response will address each of these
three categories separately.

        Denied/Revoked Clearances: The report is technically correct with its assertion that as a result
of not having an Appeal Panel in place that the FAMS was not able to terminate any employee whose
clearance was denied. For a matter of record, the FAMS, immediately following the placement of 81
FAMs on Administrative Leave (June ‘03), attempted to suspend without pay any employee whose
clearance was denied.

To ensure compliance with all existing policies and procedures for such an adverse action, the FAMS
coordinated this effort through TSA Chief Counsel (OCC). Working over the next several months
the FAMS, OCC and TSA Human Resources (HR) attempted to resolve this issue. OCC expressed
concerns over a speciﬁc TSA policy. This policy, MD 1100.75-1, Addressing Performance and Conduct
Problems, could be interpreted as not permitting the indeﬁnite suspension of an employee whose
security clearance had been denied/revoked, but was pending appeal and ﬁnal adjudication. The HR
staff believed that the policy language addressing use of indeﬁnite suspensions was broad enough to




                       Evaluation of the Federal Air Marshal Service (FAMS)                      Page 31
Appendix B
Management Comments



encompass such situations, speciﬁcally the following provision stating that an indeﬁnite suspension was
appropriate when:

          TSA is conducting an investigation of conduct that it reasonably believes
          was committed by the employee in question and is so serious that if it
          proves to be true, the employee’s continued presence at the worksite would
          represent a threat to life, property, safety or the effective operation of
          workplace.

          MD 1100.75-1, 6.E.4(A)(3).

To address the concerns expressed by OCC, HR issued a memorandum on April 20, 2004 clarifying
the MD 1100.75-1 and the circumstances in which an employee could be indeﬁnitely suspended,
which included instances where an employee’s security clearance has been denied/revoked and was
pending ﬁnal adjudication. Once that clariﬁcation was issued, the FAMS who were being carried on
administrative leave were indeﬁnitely suspended. TSA took a conservative approach to this issue,
attempting to protect the employee’s rights and prevent any decision being overturned by the Merit
Systems Protection Board in the event of an appeal.

As noted, initially, there were 81 FAMs placed on Administrative Leave for issues concerning their
clearances. During the past 12 months the average number of FAMs on Administrative Leave has been
approximately 50. This has represented a cost (salaries) of over $290,000 per month to the FAMS.
Currently, there are 37 FAMs whose clearances have been denied and are awaiting review by the
temporary TSA Appeal Panel. Of these, 14 were removed from Flight Status since June ’03.

      Disciplinary Issues: During the stand up phase of the FAMS, some employees were placed on
administrative leave for severe conduct issues if management felt the employees could not perform
their primary duties and he/she would be a danger to other employees or disruptive to the overall
ofﬁce operation. It should be emphasized that administrative leave was only employed after careful
consideration of all the facts in the case and most likely, where termination was being recommended as a
result of the misconduct.

However, it is noted that in some cases, the length of time an employee remained on administrative
leave was not under the direct control of the FAMS. For example, if ICE OPR (formally TSA Internal
Affairs) or DHS OIG accepts a FAMS misconduct case for investigation, the FAMS has no control over
how long the investigation will take and we must wait for the ﬁnal report of investigation (ROI) from
the investigating entity before we can recommend discipline. It should also be noted that OPR and OIG




Page 32                                Evaluation of the Federal Air Marshal Service (FAMS)
                                                                                Appendix B
                                                                                Management Comments



only accept for investigation the most serious allegations of misconduct, which often involves the use of
administrative leave and the ROI often takes 6 months or more to reach the FAMS.

Another issue that slows down the disciplinary process for the FAMS is the requirement for legal review
and assistance. When the recommended penalty is termination or a signiﬁcant suspension, FAMS HR
requests TSA Legal Counsel review the case including the draft letter proposing discipline, as legal
counsel may have to defend the FAMS’ position during an administrative hearing, such as MSPB. Many
of these cases are the more serious allegations where the employee is placed on administrative leave. In
some cases, it takes several months to render a ﬁnal decision due to the complexity of the case.

       Fitness for Duty: Prospective Fitness for Duty secondary to medical causes will follow the
FAMS’ policy for ﬁtness for duty (currently pending). Administrative leave is to be used for up to 10
days, only in the period following the exam, when management is awaiting the outcome of the exam. If
medical believes an employee is unﬁt for full duty prior to the scheduled examination, the employee is
placed on restricted duty, with the speciﬁc restrictions handled on a case by case basis depending on the
medical condition.

Recommendation 10: We recommend that the Under Secretary of Border and Transportation
Security establish a clear understanding of which disciplinary policies are applicable to the FAMS
and ensure that those policies are implemented and enforced.

Response: BTS agrees that Federal Air Marshals (FAMs), as weapon carrying law enforcement
ofﬁcers, should be held to the same higher standard as that of other federal law enforcement ofﬁcers.
This standard is a higher standard than that of screeners. The DHS-OIG “Evaluation of the Federal
Air Marshal Service Draft Report # 6”, page 20, paragraph 1 states that “Based on the misconduct list
provided in the TSA interim policy, air marshals could have been dismissed in many cases, but were
not.” A review of the TSA Directive Addressing Performance and Conduct Problems (Directive 100.75-
1) also discusses the use of progressive discipline and the use of the “Douglas Factors” in penalty
determination. These 12 factors suggest the deciding ofﬁcial consider such things as past performance,
the nature and seriousness of the offense, whether it was committed inadvertently or for gain, the
adequacy and effectiveness of alternative actions to deter or improve performance in the future, etc.
The FAMS also considered the cost and effort in hiring and training FAMs, which is considerably more
expensive than screener positions.

The Aviation and Transportation Security Act (ATSA) gave TSA discretion to establish its own
personnel policies for its workforce, subject to certain restrictions. ATSA gave even greater discretion
with respect to the personnel policies governing its screening workforce. Based on certain statutory




                       Evaluation of the Federal Air Marshal Service (FAMS)                        Page 33
Appendix B
Management Comments



provisions, TSA developed a list of “Screener Offenses For Which Removal Is Required for the First
Offense.” In its policy on Addressing Performance and Conduct Problems, TSA adopted a standard that
disciplinary action would be taken for cause that “promotes the efﬁciency of the service.” Although
TSA follows the principle of imposing progressively more severe disciplinary action for repeated
misconduct, its policy recognizes that there are certain instances where removal is appropriate action,
even for a ﬁrst offense.

In cases where termination was appropriate, the FAMS acted swiftly and decisively. For example,
the FAMS terminated 101 FAMs and 32 more resigned in lieu of termination between March 2002
and March 2004. BTS believes the actions taken by the FAMS were judicious, consistent and fair in
administering penalties.

Paragraph 2 of page 20 of the referenced report states “In cases of misconduct by FAMs currently
employed, there were 753 documented reports of sleeping on duty, falsifying information, testing
positive for alcohol or drugs while on duty, and stolen or lost weapons. These 753 actionable incidents
represent disciplinary actions that were reported to the FAMS HR division between February 2002 and
October 2002”.

BTS does not agree to the above statement for several reasons. First, the dates are incorrect and may
be misleading. An audit of the FAMS Operational Integrity Division database for the period June
2002 through March 2004 (a 22 month period) disclosed 717 cases, not the 753 stated in the report.
Furthermore, the report cites only the most serious allegations of misconduct. It must be noted that a
large portion of these cases includes the much less serious, but much more common allegations, such as
those made by airline employees, like rude behavior by a FAM during the check-in process. We believe
the below bar chart more accurately reﬂects the number and types of misconduct cases in the FAMS.




Page 34                               Evaluation of the Federal Air Marshal Service (FAMS)
                                                                                 Appendix B
                                                                                 Management Comments



                                   June 2002 - March 2004 / Total = 717




    *Others to include: tardiness; failure to follow orders; failure to meet conditions of employment.
   **Firearms Violation to include: mishandling of ﬁrearm during training and accidental discharges.


Another category noted in OIG’s appendix A is 143 “Lost or stolen Government Property – Includes
weapons”. As the above chart illustrates, during the 22 month period noted, the FAMS had 17 lost/
stolen weapons and 129 cases of other lost government equipment such as cell phones, PDAs, etc.

The last paragraph of this section, preceding recommendation 10, cites the cases of two FAMs that
were placed on administrative leave when marijuana usage was detected in a random drug test. The
report states the FAMS failed to effectively utilize TSA’s interim disciplinary process, which calls for
mandatory removal for the ﬁrst offense.




                       Evaluation of the Federal Air Marshal Service (FAMS)                         Page 35
Appendix B
Management Comments



As stated above, ATSA provided TSA greater discretion with respect to the personnel policies governing
its screening workforce. TSA policy held screeners to a higher standard for ﬁrst offenses. BTS is in
absolute agreement that these FAMs should have been held to the same standard as other federal law
enforcement ofﬁcers and perhaps should have been terminated in a timelier manner. These two cases
occurred in May and June 2003. Upon detection of the illegal substances, both FAMs were immediately
relieved of their weapons and credentials and placed on administrative leave. The FAMS recommended
termination; however, consistent with TSA policies, OCC could not support indeﬁnite suspension
without pay for these FAMs unless their security clearances were ﬁrst revoked. Therefore, the FAMS
requested TSA revoke their security clearances, which occurred on 1/22/04.

Recommendation 11: We recommend that the Under Secretary of Border and Transportation
Security discontinue the practice of advancing funds for ofﬁcial travel.

Response: BTS concurs and shall direct the FAMS (through ICE) to immediately implement the
discontinuation of future travel advances and shall initiate recovery of all previously advanced travel
funds subsequent to the close out of ﬁscal year (FY) 2004.

As background, DHS OIG reported that interviews at FAMS ﬁeld ofﬁces resulted in the discovery
of approximately $6.5 million in dispersed travel advances to Federal Air Marshals (FAMs). DHS
OIG reported the policy was dated to 1968 and the inception of the Sky Marshal Program, when
reimbursement delays and travel advances were common.

DHS OIG’s recommendation to discontinue the travel advance policy and recover all previously
advanced travel funds will be initiated by the Director of the FAMS. However, the FAMS requests
clariﬁcation to the errors of fact in the DHS OIG report. While the FAMS does not argue against
recommendation #11, it does request corrections as needed:

DHS OIG reported the air marshal position initiated with the US Customs Service (USCS) Sky Marshal
Program of the 1970s. In fact, President John F. Kennedy issued a Presidential Directive in 1961 for
the Federal Aviation Administration (FAA) to initiate a program to train personnel to deal with hijackers
in ﬂight. The FAA structured a small-scale program and eighteen (18) members of the FAA’s Flight
Standards Inspectors Program were chosen to attend specialized training at the U.S. Border Patrol
Academy in Houston, Texas. This original group of “peace ofﬁcers”, deputized by Attorney General
Robert Kennedy, ﬂew on ﬂights that were regarded as “high risk”. The USCS Sky Marshal Program,
jointly managed by the USCS/FAA, did not initiate until the 1970s.




Page 36                               Evaluation of the Federal Air Marshal Service (FAMS)
                                                                                 Appendix B
                                                                                 Management Comments



DHS OIG reported the travel advance policy dated to 1968 when there were reimbursement delays and
travel advances were common. In fact, the FAMS current travel reimbursement procedure was initiated
in the late 1990s based on the Department of Transportation’s (DOT) elimination of imprest funds. By
using credit cards, new automated teller machine (ATM) services, travel checks and other payment
methods, DOT and its organization elements (i.e. FAA) were able to close imprest funds thereby
eliminating the ability of employees (i.e. FAMs) to secure cash travel advances. FAMs, at the time of
this action, were deployed internationally for periods of eighteen to twenty-one days and due, in part, to
the lack of participating ATM/bank services worldwide and the lack of reliability on timely processing
of a hard copy vouchers within the FAA’s regionalized hierarchy, the FAMs relied on a FAA travel
advance. The travel advance was only maintained until the individual separated from performing FAM
duties and responsibilities. The legacy policy of FAA travel advances for FAMs was carried forward
following the tragic events of September 11, 2001, and it has followed the FAMS as they transferred
three different times in less than three years. (In November 2001, the authority over the FAMS shifted
from the FAA to TSA within DOT; in March 2003, the FAMS was incorporated with TSA into DHS; and
in November 2003, the FAMS was transferred within DHS from TSA to ICE.) The FAMs travel advance
provided the FAMS with the ability to maintain operational readiness during the buildup of the FAMS,
it permitted seamless transitions and migration to/from several different ﬁnancial systems over the last
three years, and it provided operational stability as they integrated into their current web-based travel
reimbursement system.




                       Evaluation of the Federal Air Marshal Service (FAMS)                        Page 37
Appendix C
OIG Evaluation of Management Comments



                   We evaluated BTS’ written comments and have made changes to the report where
                   deemed appropriate. Below is a summary of BTS’ written response to the report’s
                   recommendations and our analysis of the BTS response.

                   Recommendation 1: Clarify the FAMS suitability guidelines to include:
                   (1) disqualifying criminal, credit, employment and other background issues;
                   (2) setting time limits on the length of time required between derogatory incident
                   and date of selection; and (3) providing for the use of warning under the OPM
                   policy.

                   BTS Response: BTS agrees that subsequent FAM adjudications conducted by
                   ICE should be guided by published suitability standards developed by ICE and
                   applicable standards and guidelines for security clearance adjudications. Since
                   the transfer of the FAMS to ICE, ICE has developed and implemented guidelines,
                   which are currently in place that fully address all aspects of this recommendation.
                   BTS, however, disagrees with our conclusion that adjudication standards were too
                   lenient when 161 applicants were previously adjudicated successfully for access
                   to classiﬁed information.

                   OIG Evaluation: BTS’ development and implementation of suitability standards
                   and adjudication guidelines upon the transfer of the FAMS from TSA to ICE is
                   responsive to this recommendation. We reinforce, however, that the air marshal
                   position is designated “high risk” and, as such, is a position that demands the
                   highest degree of public trust. To that end, we maintain that previously applied
                   adjudication standards were too lenient, as many FAMs were granted access to
                   classiﬁed information after displaying questionable judgment, irresponsibility,
                   and emotionally unstable behavior. As part of its action plan to resolve this
                   recommendation, BTS should provide us with a copy of the ICE suitability
                   standards and adjudication guidelines. Recommendation 1 is resolved – open.

                   Recommendation 2: Require that background investigations of current and
                   former federal employees include a review of all available personnel, security, and
                   conduct ﬁles held by the employing agency. This can be accomplished by placing
                   a clause in the OPM investigation agreement requiring that internal affairs ofﬁces
                   be checked for derogatory employment records on the applicant.




Page 38                           Evaluation of the Federal Air Marshal Service (FAMS)
                                           Appendix C
                                           OIG Evaluation of Management Comments



BTS Response: BTS agrees that background investigations should review all
available personnel, security, and conduct ﬁles held by previous employers,
as determined appropriate by OPM investigators. In addition, BTS states that
OPM does inquire with the appropriate internal affairs ofﬁces should evidence
present itself in the course of an investigation. Finally, ICE intends to contact
an applicant’s current/past employer at the initial applicant stage for Federal Air
Marshal applicants.

OIG Evaluation: BTS’ comment is not responsive to this recommendation.
OPM does not always inquire with the appropriate internal affairs ofﬁce should
evidence present itself in the course of an investigation. In numerous instances
during the course of a background investigation, an applicant’s supervisor or
colleague indicated an applicant was involved in misconduct, yet the OPM
investigator did not inquire with the appropriate internal affairs ofﬁce to obtain
further details. In addition, supervisors and colleagues of applicants notiﬁed OPM
investigators of applicant misconduct in only 32 percent of all cases of sustained
misconduct. This leads us to conclude that a current or former supervisor or
colleague does not always disclose derogatory information during an interview
with an investigator. Therefore, we continue to maintain that BTS implement
all aspects of this recommendation and include this item in its action plan.
Recommendation 2 remains unresolved.

Recommendation 3: Develop a clear and consistent policy regarding the testing
of the PPC in the ﬁeld ofﬁces. This policy should address how the qualiﬁcation is
to be conducted and the treatment of air marshals who fail to qualify during a ﬁrst
attempt.

BTS Response: ICE/FAMS states that it has a clear and consistent ﬁrearms
policy that has the Practical Pistol Course (PPC) as the qualiﬁcation standard. In
addition, ICE/FAMS has activated assessment teams to visit all ﬁeld ofﬁces to
ensure consistency in all aspects of training, including standardization of warm-up
procedures, course of ﬁre, and remedial action if qualiﬁcation standards are not
met.

OIG Evaluation: We agree that ICE/FAMS’ use of the PPC as the qualiﬁcation
standard across the organization is consistent, but our recommendation is
speciﬁcally directed at the inconsistent nature of the testing of the PPC across the




Evaluation of the Federal Air Marshal Service (FAMS)                          Page 39
Appendix C
OIG Evaluation of Management Comments



                   organization. BTS’ and the ICE/FAMS’ future action to ensure consistency in
                   all aspects of training will be responsive to this recommendation. As part of its
                   action plan to resolve this recommendation, BTS should provide us with policy
                   documentation stating the speciﬁc PPC warm-up procedures and remedial action
                   if qualiﬁcation standards are not met, as well as the planned completion date for
                   the assessment teams to visit all ﬁeld ofﬁces. Recommendation 3 is resolved
                   – open.

                   Recommendation 4: Ensure that Federal Air Marshals complete mandated
                   quarterly training or clarify which personnel are exempt from this policy.

                   BTS Response: BTS agrees with and ICE has taken steps to comply with
                   this recommendation. FAMS Ofﬁce of Training and Development (OTD) will
                   ensure that quarterly training requirements for Federal Air Marshals assigned to
                   headquarters and other support elements outside the purview of the ﬁeld ofﬁces
                   are met.

                   OIG Evaluation: BTS’ efforts to ensure quarterly training requirements for all
                   applicable air marshals are met would be responsive to this recommendation. As
                   part of its action plan to resolve this recommendation, BTS should provide us
                   with policy documentation stating how the OTD will ensure quarterly training
                   requirements are met, and stating that Supervisory Federal Air Marshals, whose
                   duties do not include ﬂying missions, are not required to participate in all
                   elements of the quarterly training curriculum. Recommendation 4 is resolved
                   – open.

                   Recommendation 5 and the BTS response are classiﬁed.

                   OIG Evaluation: BTS’ explanation regarding this recommendation is not
                   acceptable and misconstrues it. The purpose of the recommendation was to urge
                   BTS to apply more resources to the subject or to reﬁne its formulas to obtain a
                   better application with the resources that are available, not to artiﬁcially change
                   the number to look better. BTS asserts it will continue to improve this process
                   “in the future” but stops short of promising to do so now. BTS should improve
                   the formula or seek more resources. We await a further response from BTS.
                   Recommendation 5 is unresolved.




Page 40                            Evaluation of the Federal Air Marshal Service (FAMS)
                                           Appendix C
                                           OIG Evaluation of Management Comments



Recommendation 6: Develop criteria for the selection and training of ICE surge
agents.

BTS Response: BTS agrees with this recommendation and supports ICE’s efforts
on this issue. A 40-hour surge training program was developed and implemented
by ICE in December 2003. In addition, the criteria for selection and training of
ICE special agents have been in place since that time.

OIG Evaluation: When ﬁeld work associated with this inspection was
completed, the FAMS had not yet developed the criteria for selection and training
of ICE special agents. BTS’ statement that it has developed criteria and training
for surge agents since that time is responsive to this recommendation. As part
of its action plan to resolve this recommendation, BTS should provide us with a
copy of the criteria and training program. Recommendation 6 is resolved – open.

Recommendation 7: Establish a personnel security appeals board to review
denied clearances.

BTS Response: BTS agrees with this recommendation and notes that DHS
established a Security Appeals Panel to handle the appeals of all DHS employees,
including those in DHS organizational elements. In addition, BTS notes that a
special temporary TSA/FAMS Security Appeals Panel was created on April 28,
2004, to hear any security appeal of a FAMS employee whose security clearance
had been denied or revoked by a deciding authority at TSA.

OIG Evaluation: BTS’ action to establish a temporary TSA/FAMS Security
Appeals Panel is responsive to this recommendation. Recommendation 7 is
resolved – open.

Recommendation 8: Complete required annual medical examinations.

BTS Response: BTS agrees with this recommendation. In March 2004, ICE/
FAMS initiated a program to provide mandatory medical evaluations for FAMS,
and currently the FAMS is in the process of completing required periodic medical
examinations for all FAMS.




Evaluation of the Federal Air Marshal Service (FAMS)                      Page 41
Appendix C
OIG Evaluation of Management Comments



                   OIG Evaluation: BTS’ implementation of a speciﬁc ICE/FAMS medical
                   evaluation program is responsive to this recommendation. As part of its action
                   plan to resolve this recommendation, BTS should provide us with a copy of the
                   policy initiated in March 2004, and a timetable indicating when periodic medical
                   examinations for all FAMS will be completed. Recommendation 8 is resolved
                   – open.

                   Recommendation 9: Establish a policy addressing the FAMS’ use of
                   administrative leave.

                   BTS Response: BTS concurs with this recommendation. On April 20, 2004,
                   TSA Human Resources issued a memorandum clarifying the circumstances
                   in which an employee would not be placed on administrative leave and could
                   be indeﬁnitely suspended. These circumstances included instances where an
                   employee’s security clearance has been denied or revoked.

                   OIG Evaluation: BTS’ and TSA’s issuance of a memorandum clarifying
                   the circumstances in which an employee could be indeﬁnitely suspended is
                   responsive to this recommendation. According to this memorandum, instances
                   of a denied or revoked security clearance will result in an indeﬁnite suspension.
                   However, it is not clear if this memorandum also applies to employees under
                   investigation for disciplinary action. As part of its action plan to resolve
                   this recommendation, BTS should provide us with a copy of the TSA HR
                   memorandum. Recommendation 9 is resolved – open.

                   Recommendation 10: Establish a clear understanding of which disciplinary
                   policies are applicable to the FAMS and ensure that those policies are
                   implemented and enforced.

                   BTS Response: BTS agrees that ICE and Federal Air Marshals, as weapon
                   carrying law enforcement ofﬁcers, should be held to the same standard as that
                   of other federal law enforcement ofﬁcers. This is a higher standard than that to
                   which screeners are held. BTS believes, however, that disciplinary actions taken
                   by the FAMS during the period noted in our inspection were judicious, consistent,
                   and fair in administering penalties. In addition, BTS does not agree with our
                   reporting that there were 753 documented reports of sleeping on duty, falsifying




Page 42                           Evaluation of the Federal Air Marshal Service (FAMS)
                                           Appendix C
                                           OIG Evaluation of Management Comments



information, testing positive for alcohol and drugs while on duty, and stolen or
lost weapons during the period from February 2002 to October 2002.

OIG Evaluation: We maintain that based on the misconduct list provided in
TSA’s Interim Policy on Addressing Performance and Conduct Problems, air
marshals could have been dismissed in many misconduct cases during the period
from February 2002 to October 2002, but were not. In addition, though BTS
disagrees with our reporting of the number of documented cases of misconduct
from February 2002 to October 2002, its response provides alternative data
from a different period and from a different source. As stated in the report, our
information regarding cases of air marshal misconduct was obtained from the
FAMS Human Resources Division. BTS’ agreement to hold air marshals to the
same standard as other federal law enforcement ofﬁcers within ICE is responsive
to Recommendation 10. As part of its action plan to resolve this recommendation,
BTS should provide us with a copy of the disciplinary policy that applies to
ICE federal law enforcement ofﬁcers, and documentation stipulating (1) that
this policy also applies to Federal Air Marshals and (2) that all air marshals are
apprised of this disciplinary policy. Recommendation 10 is resolved – open.

Recommendation 11: Discontinue the practice of advancing funds for ofﬁcial
travel.

BTS Response: BTS concurs and shall direct ICE to discontinue all future FAM
travel advances and initiate recovery of all previously advanced travel funds
subsequent to the close out of FY 2004.

OIG Evaluation: BTS’ direction to discontinue future travel advances and
initiate recovery of all previously advanced travel funds is responsive to this
recommendation. As part of its action plan to resolve this recommendation, BTS
should provide us with a status of the recovery effort. Recommendation 11 is
resolved – open.




Evaluation of the Federal Air Marshal Service (FAMS)                        Page 43
Appendix D
Recommendations



Recommendations
                  We recommend that the Assistant Secretary of U.S. Immigration and Customs
                  Enforcement:

                  Recommendation 1: Revise the FAMS suitability guidelines to include: (1)
                  disqualifying criminal, credit, employment, and other background issues; (2)
                  setting time limits on the length of time required between derogatory incident and
                  date of selection; and (3) providing for the use of warnings under the OPM policy.

                  Recommendation 2: Require that background investigations of current and
                  former federal employees include a review of all available personnel, security, and
                  conduct ﬁles held by the employing agency. This can be accomplished by placing
                  a clause in the OPM investigation agreement requiring that internal affairs ofﬁces
                  are checked for derogatory employment records on the applicant.

                  Recommendation 3: Develop a clear and consistent policy regarding the testing
                  of the PPC in the ﬁeld ofﬁces. This policy should address how the qualiﬁcation is
                  to be conducted and the treatment of air marshals who fail to qualify during a ﬁrst
                  attempt.

                  Recommendation 4: Ensure that all air marshals complete mandated quarterly
                  training requirements or clarify which personnel are exempt from this policy.

                  Recommendation 5: This recommendation is classiﬁed.

                  Recommendation 6: Develop criteria and a schedule for the selection and
                  training of surge capacity ICE special agents.

                  Recommendation 7: Establish a personnel security appeals board to review
                  denied clearances.

                  Recommendation 8: Ensure that air marshals complete required annual medical
                  examinations, and clarify as well as enforce a structured physical ﬁtness program.

                  Recommendation 9: Establish a policy addressing the FAMS’ use of
                  administrative leave.




Page 44                          Evaluation of the Federal Air Marshal Service (FAMS)
                                                            Appendix D
                                                            Recommendations



We recommend that the Under Secretary of Border and Transportation Security:

Recommendation 10: Establish a clear understanding of which disciplinary
policies are applicable to the FAMS and ensure that those policies are
implemented and enforced.

Recommendation 11: Discontinue the travel advance policy and recover all
previously advanced travel funds.




Evaluation of the Federal Air Marshal Service (FAMS)                   Page 45
Appendix E
Major Contributors to this Report



                      Melissa M. Howard, Ph.D., Chief Inspector, Department of Homeland Security,
                      Ofﬁce of Inspections, Evaluations, and Special Reviews

                      Pat Wallis, Senior Inspector, Department of Homeland Security, Ofﬁce of
                      Inspections, Evaluations, and Special Reviews

                      Philip Windust, Inspector, Department of Homeland Security, Ofﬁce of
                      Inspections, Evaluations, and Special Reviews

                      Megan McNeely, Inspector, Department of Homeland Security, Ofﬁce of
                      Inspections, Evaluations, and Special Reviews




Page 46                              Evaluation of the Federal Air Marshal Service (FAMS)
                                                       Appendix F
                                                       Report Distribution



Department of Homeland Security

The Honorable Tom Ridge
Secretary
Department of Homeland Security

Admiral James Loy
Deputy Secretary
Department of Homeland Security

Mr. Joe Whitley, Esq.
General Counsel
Department of Homeland Security

Mr. Duncan Campbell
Chief of Staff
Department of Homeland Security

The Honorable Janet Hale
Under Secretary for Management
Department of Homeland Security

Ms. Anna Dixon
Management OIG Liaison
Department of Homeland Security

Mr. Bill Fairweather
Deputy Chief Security Ofﬁcer
Department of Homeland Security

Ms. Susan Neely
Public Affairs Ofﬁcer
Department of Homeland Security




Evaluation of the Federal Air Marshal Service (FAMS)                Page 47
Appendix F
Report Distribution



                      U.S. Immigration and Customs Enforcement

                      The Honorable Michael J. Garcia
                      Assistant Secretary
                      U.S. Immigration and Customs Enforcement

                      Mr. Randolph Williams
                      OIG Liaison
                      U.S. Immigration and Customs Enforcement

                      Ms. Margaret H. Coggins
                      Deputy Assistant Director
                      FAMS OIG Liaison

                      Transportation Security Administration

                      Rear Admiral David M. Stone, USN (Ret.)
                      Assistant Secretary of Homeland Security for the
                       Transportation Security Administration

                      Mr. Frank McNally
                      OIG Liaison
                      Transportation Security Administration


                      Ofﬁce of Management and Budget

                      Mr. David Haun
                      Chief, Homeland Security Branch

                      Mr. Jim Holm
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriation Committees, as appropriate




Page 48                              Evaluation of the Federal Air Marshal Service (FAMS)
                                Appendix G
                                Flight Assignments (Classiﬁed, Limited Distribution)



Flight Assignment

This Appendix is classiﬁed and available to authorized readers.




Evaluation of the Federal Air Marshal Service (FAMS)                         Page 49
Page 50   Evaluation of the Federal Air Marshal Service (FAMS)
                                   SENSITIVE SECURITY INFORMATION




    Additional Information and Copies

    To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
    at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
    www.dhs.gov/oig.

    OIG Hotline

    To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
    or noncriminal misconduct relative to department programs or operations, call the OIG
    Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
    20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
    seeks to protect the identity of each writer and caller.




WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520. No part
of this record may be disclosed to persons without a “need to know”, as deﬁned in 49 CFR parts 15 and 1520, except with the
written permission of the Administrator or the Secretary of Transportation. Unauthorized release may result in civil penalty or
other action. For U.S. government agencies, public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.
